Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




       FLORIDA MEDICAID:
    MILLIONS IN OVERPAYMENTS
         NOT REFUNDED

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                       March 2013
                                                      A-04-11-08007
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although
each State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. One of these requirements is that when a State
recognizes that it has made a Medicaid overpayment, it must report the overpayment to the
Federal Government after 60 days and repay the Federal portion. Federal regulations also
establish rules and procedures for disallowing Federal financial participation because of
eligibility errors detected through the Medicaid Eligibility Quality Control (MEQC) program.

The Florida Agency for Health Care Administration (State agency) operates Florida’s Medicaid
program. The State agency is the sole recipient of Federal matching funds for Florida Medicaid,
with authority to draw down Federal grant matching funds for allowable expenditures. The State
agency entered into a cooperative agreement with the Florida Department of Children and
Families (the Department) to conduct Medicaid eligibility determinations in accordance with the
approved State plan. The cooperative agreement also required the Department to ensure
beneficiary eligibility information is accurate and up to date, report expenditures to the State
agency, and process all overpayment reports and benefit recoveries for beneficiaries.

OBJECTIVE

Our objective was to determine whether the State agency returned the Federal share of Medicaid
overpayments identified by the Department.

SUMMARY OF FINDINGS

The State agency did not return the Federal share of Medicaid overpayments identified or
collected by the Department. From July 1, 2007, through June 30, 2010, the Department
identified $22,283,131 ($12,251,265 Federal share) in Medicaid overpayments. Of this amount,
the Department collected $2,499,370 ($1,400,888 Federal share) but had not collected the
remaining $19,783,761 ($10,850,377 Federal share). The State agency did not return the Federal
share of either the collected or uncollected amounts to CMS. In addition, the Department
collected $1,532,633 ($851,842 Federal share) of overpayments after our audit period, from
July 1, 2010, through June 30, 2012.

The State agency did not return the Federal share of Medicaid overpayments because it did not
adequately coordinate with the Department to ensure that the Department reported collections of
Medicaid overpayments in accordance with Federal and State requirements.




                                                    i
RECOMMENDATIONS

We recommend that the State agency:

   •   repay the $1,400,888 Federal share of Florida State Medicaid overpayment collections
       during our audit period (July 1, 2007, through June 30, 2010),

   •   repay the $851,842 Federal share of Florida State Medicaid overpayment collections
       during the 2 State fiscal years (July 1, 2010, through June 30, 2012) after our audit
       period,

   •   improve coordination with the Department to report State-identified Medicaid
       overpayments and collections, and

   •   work with CMS to determine whether the State must repay the $10,850,377 Federal share
       of the recipient overpayments identified but not collected.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed that it had identified
$22,283,131 in overpayments that had not been returned. While agreeing with the amount
identified, the State agency pointed out that it had recovered only $2,499,370 and stated that it
was prepared to refund the Federal share of this amount. The State agency did not agree that it
should be required to refund the Federal share of the identified but not collected overpayments.

The State agency concurred with our recommendation to improve coordination between State
agencies and to report State-identified Medicaid overpayments made on behalf of ineligible
recipients, and it described actions that it had undertaken to implement this recommendation.

OFFICE OF INSPECTOR GENERAL RESPONSE

After further review of applicable Federal requirements, we modified our recommendation that
the State return the Federal share of all identified overpayments. Instead, we are recommending
that the State repay the Federal share of the overpayments that it collected during our initial audit
period. Furthermore, we added a recommendation that the State repay the Federal share of the
overpayments that it collected in the 2 years after our audit period. Finally, we added a
recommendation that the State work with CMS to determine whether the State must repay the
Federal share of recipient overpayments identified outside a State’s MEQC program.




                                                     ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION …..................................................................................................................1

          BACKGROUND .............................................................................................................1
              Florida Agency for Health Care Administration ..................................................1
              The Cooperative Agreement .................................................................................1
              Florida Medicaid Overpayment Identification......................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope ....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .............................................................................3

          FEDERAL REQUIREMENTS .........................................................................................3

          STATE-IDENTIFIED MEDICAID OVERPAYMENTS ................................................4
               Inadequate Coordination .......................................................................................5
               Medicaid Overpayments Not Returned ................................................................5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS .....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                         iii
                                                 INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although
each State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. One of these requirements is that when a State
recognizes that it has made a Medicaid overpayment, it must report the overpayment to the
Federal Government after 60 days and repay the Federal portion. 1 Federal regulations also
establish rules and procedures for disallowing Federal financial participation (FFP) because of
eligibility errors detected through the Medicaid Eligibility Quality Control (MEQC) program.

Florida Agency for Health Care Administration

The Florida Agency for Health Care Administration (State agency) operates Florida’s Medicaid
program. The State agency is the sole recipient of Federal matching funds for Florida Medicaid,
with authority to draw down Federal grant matching funds for allowable expenditures. The State
agency entered into a cooperative agreement with the Florida Department of Children and
Families (the Department) to conduct Medicaid eligibility determinations in accordance with the
approved State plan. The cooperative agreement also required the Department to ensure
beneficiary eligibility information is accurate and up to date, report expenditures to the State
agency, and process all overpayment reports and benefit recoveries for beneficiaries.

The State agency reports its expenditures to CMS via the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (CMS-64). The quarterly expenditure reports
are based on expenditures made by the State agency and on expenditures reported by the
Department to the State agency.

The Cooperative Agreement

Under the cooperative agreement, the State agency is responsible for, among other things,
processing all overpayment reports and benefit recoveries for providers of Medicaid services and
maintaining the Medicaid information system for beneficiary eligibility, provider enrollment,
claim payment, and surveillance and utilization review. The cooperative agreement states that
the Department will conduct Medicaid-related functions in accordance with the approved
Medicaid State plan, Title XIX of the Act, and all other applicable Federal and State laws and
regulations as approved and directed by the State agency.

The cooperative agreement further states that the Department will, among other things, process
all overpayment reports and benefit recoveries for beneficiaries, maintain the system that


1
    The period for reporting is 1 year for overpayments identified after March 23, 2010.


                                                            1
determines eligibility and authorizes benefits, and ensure that the beneficiary eligibility
information is accurate and up to date.

Florida Medicaid Overpayment Identification

The Department’s Benefit Recovery (Recovery) unit identifies and documents the existence,
circumstances, and amount of public assistance overpayments. 2 In addition, it pursues recovery
of overpayments from the party receiving the overpayment or from the party responsible for
causing the overpayment. The Recovery unit defines a reportable overpayment as existing when
funds may have been expended on behalf of beneficiaries who were not eligible for Medicaid
coverage or who were eligible only after meeting a share of costs. The Recovery unit is
responsible for identifying all overpayment claims and recouping overpayments within the
Department. During our audit period, the Recovery unit identified $22,383,131 in Medicaid
overpayments and reported recovery of $2,499,370 in overpayments. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency returned the Federal share of Medicaid
overpayments identified by the Department.

Scope

Our audit covered $22,283,131 in State-identified Medicaid overpayments for ineligible
individuals during the period July 1, 2007, through June 30, 2010. We did not review the overall
internal control structure of the State agency, the Department, or the Medicaid program. We
limited our review to internal controls directly related to our objective. We performed fieldwork
at the State agency and the Department offices in Tallahassee, Florida, from June 2011 through
February 2012.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws and regulations;

      •    reviewed the cooperative agreement between the State agency and the Department;




2
 The Recovery unit operates pursuant to the Department’s internal Access Florida Program Policy Manual, which
provides guidance on overpayment identification and recovery of overpayments related to other Federal programs
such as Temporary Assistance to Needy Families and refugee assistance, as well as Medicaid.
3
    The Department collected an additional $1,532,633 in overpayments from July 1, 2010, through June 30, 2012.


                                                          2
   •   interviewed State agency and Department officials to understand the State’s policies,
       procedures, guidance, and methodology for identifying and reporting Medicaid
       overpayments due to erroneous eligibility determinations;

   •   obtained a database containing all 15,079 Department-identified Medicaid overpayments,
       totaling $22,283,131;

   •   validated the database by selecting 100 Department-identified Medicaid overpayments
       and determining whether:

           o the Medicaid overpayments were adequately supported,

           o the Medicaid overpayments received Federal financial participation, and

           o the Department communicated the Medicaid overpayments to the beneficiary; and

   •   determined whether the Department reported the Medicaid overpayments to the State
       agency and whether the State agency credited the Federal share of overpayments to CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not return the Federal share of Medicaid overpayments identified or
collected by the Department. From July 1, 2007, through June 30, 2010, the Department
identified $22,283,131 ($12,251,265 Federal share) in Medicaid overpayments. Of this amount,
the Department collected $2,499,370 ($1,400,888 Federal share) but had not collected the
remaining $19,783,761 ($10,850,377 Federal share). The State agency did not return the Federal
share of either the collected or uncollected amounts to CMS. In addition, the Department
collected $1,532,633 ($851,842 Federal share) of overpayments subsequent to our audit period,
from July 1, 2010, through June 30, 2012, that it did not report to CMS.

The State agency did not return the Federal share of Medicaid overpayments because it did not
adequately coordinate with the Department to ensure that the Department reported Medicaid
overpayments in accordance with Federal and State requirements.

FEDERAL REQUIREMENTS

Pursuant to section 1903(d)(2) and (3) of the Act, the Federal share of Medicaid expenditures
must be appropriately adjusted to account for overpayments and underpayments. When a State
discovers that it made a Medicaid overpayment, the State must report the amount of the
overpayment to CMS on Form CMS-64 as an offset to expenditures. Offsetting expenditures on
Form CMS-64 serves as a State’s refund of overpayments to CMS. A State has 60 days from the

                                               3
date of discovery of an overpayment to seek recovery before repaying the Federal share.
Generally, a State must refund the Federal share to CMS after 60 days, regardless of whether the
State recovers the overpayment.

Federal regulations (42 CFR § 433.304) define an overpayment as “the amount paid by a
Medicaid agency to a provider which is in excess of the amount that is allowable for services
furnished … and which is required to be refunded ….” Federal regulations (§ 433.304) define
discovery as the identification by a State of an overpayment and the communication of that
overpayment finding. Overpayment recovery rules apply to overpayments discovered by or
made known to the State (§ 433.310(a)).

Section 1903(u) of the Act establishes FFP limits for erroneous excess payments for medical
assistance. Section 1903(u)(1)(A) of the Act sets an allowable error rate for a State’s erroneous
expenditures, which covers medical assistance expenditures made on behalf of ineligible
beneficiaries. Federal regulations (§ 431.800) implementing section 1903(u) establish “… State
plan requirements for a Medicaid Eligibility Quality Control (MEQC) program designed to
reduce erroneous expenditures by monitoring eligibility determinations ….” Federal regulations
(§ 431.865) also establish rules and procedures for disallowing FFP because of eligibility errors
detected through the MEQC program.

CMS policy, as stated in section 2500.6A of its State Medicaid Manual, is to recoup
“… recipient overpayment dollars exclusively on the basis of Medicaid Eligibility Quality
Control (MEQC) penalties for periods during which MEQC systems are in effect. The Federal
share of overpayment involving recipients must be refunded immediately following discovery, as
required under §1903(d)(2)(A) of the Act, only if the overpayment occurred during a period for
which MEQC systems were not in effect.” Recipient overpayments are erroneous payments for
medical assistance made by a State on behalf of an ineligible beneficiary.

The State agency and, where applicable, local agencies administering the State Medicaid plan are
required to maintain an accounting system and supporting fiscal records to ensure that claims for
Federal funds comply with applicable Federal requirements (§ 433.32(a)).

STATE-IDENTIFIED MEDICAID OVERPAYMENTS

Through its process of eligibility determinations, the Department identified $22,283,131
($12,251,265 Federal share) in Medicaid overpayments from July 1, 2007, through June 30,
2010. Of this amount, the Department recovered $2,499,370 ($1,400,888 Federal share) but had
not collected the remaining $19,783,761 ($10,850,377 Federal share). The Department identifies
Medicaid overpayments using the following eligibility determination process:

   1. An eligibility specialist determines that an overpayment may exist.

   2. A supervisor reviews the eligibility specialist’s conclusion to determine whether the
      identified ineligibility is valid prior to transmitting information related to the ineligibility
      to the Recovery unit.



                                                  4
   3. The Recovery unit reviews Medicaid payment information and establishes the amount of
      the overpayment based on the best available information.

   4. The Department sends a letter to the recipient requesting payment of the overpayment
      amount.

At no point in the process described above did the Department notify the State agency of the
Medicaid overpayments or collections. Therefore, the State agency did not return to CMS the
Federal share of overpayments that it identified or collected.

Since Federal fiscal year 1999, Florida has participated in a pilot MEQC program. The
overpayments, however, were not identified as part of the program. As described above, the
Department identified the overpayments as part of its processes for monitoring and recovering
overpayments through its Recovery Unit.

Inadequate Coordination

The State agency did not return the Medicaid overpayments identified or collected because it did
not adequately coordinate with the Department to ensure compliance with requirements to report
and recover the Federal share of State-identified Medicaid overpayments. Specifically, the State
agency did not receive reports from, or have access to, the Department’s Recovery unit
accounting system. Furthermore, instead of returning Medicaid overpayment recoveries to the
State agency, the Department retained all recoveries from Medicaid overpayments that it
identified to partially fund the operation of its Recovery unit. Thus, the State agency had no
knowledge of Medicaid overpayments identified or collected by the Department and could not
ensure that it appropriately adjusted its Federal funds to comply with applicable Federal
requirements.

Medicaid Overpayments Not Returned

As a result of this inadequate coordination, the Department did not report to the State agency the
$22,283,131 ($12,251,265 Federal share) in Medicaid overpayments that it identified or the
$2,499,370 ($1,400,888 Federal share) in Medicaid overpayments that it collected, and the State
agency did not return the Federal share to CMS.

In addition, the Department collected $1,532,633 ($851,842 Federal share) of overpayments after
our audit period, from July 1, 2010, through June 30, 2012.

RECOMMENDATIONS

We recommend that the State agency:

   •   repay the $1,400,888 Federal share of Florida State Medicaid overpayment collections
       during our audit period (July 1, 2007, through June 30, 2010),




                                                5
   •   repay the $851,842 Federal share of Florida State Medicaid overpayment collections
       during the 2 State fiscal years (July 1, 2010, through June 30, 2012) after our audit
       period,

   •   improve coordination with the Department to report State-identified Medicaid
       overpayments and collections, and

   •   work with CMS to determine whether the State must repay the $10,850,377 Federal share
       of recipient overpayments identified but not collected.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed that it had identified
$22,283,131 in overpayments that had not been returned. While agreeing with the amount
identified, the State agency pointed out that it had recovered only $2,499,370 and stated that it
was prepared to refund the Federal share of this amount. The State agency did not agree that it
should be required to refund the Federal share of the identified but not collected overpayments.

The State agency concurred with our recommendation to improve coordination between State
agencies and to report State-identified Medicaid overpayments made on behalf of ineligible
recipients, and it described actions that it had undertaken to implement this recommendation.

See the Appendix for the full text of the State agency comments.

OFFICE OF INSPECTOR GENERAL RESPONSE

After further review of applicable Federal requirements, we modified our recommendation that
the State return the Federal share of all identified overpayments. Instead, we are recommending
that the State repay the Federal share of the overpayments that it collected during our initial audit
period. Furthermore, we added a recommendation that the State repay the Federal share of the
overpayments that it collected in the 2 years after our audit period. Finally, we added a
recommendation that the State work with CMS to determine whether the State must repay the
Federal share of recipient overpayments identified outside a State’s MEQC program.




                                                  6
APPENDIX
                  APPENDIX: STATE AGENCY COMMENTS
	                                           Page 1 of 4




    RICK SCOTT
    GOVERNOR
                                    .tN1CA
                                    FLORlOA.H3ENCY FOR HEALTH ORE ADMINlSTRA110N

                                   Better Health Care for all Floridians
                                                                                        ELIZABETH DUDEK
                                                                                           SECRETARY


                                                   August 10, 2012



Ms. Lori S. Pilcher, Regional Inspector General
U.S. Department of Health and Human Services
Office of Inspector General
OAS, Region IV
61 Forsyth Street, S.W., Suite 3T41
Atlanta, GA 30303

RE:     Report Number A-04-11-08007

Dear Ms. Pilcher:

This letter is in response to the draft report issued by the U.S. Department of Health and Human
Services, Office of Inspector General (DIG) entitled "Florida Medicaid: Millions in Overpayments
Not Refunded." The Florida Agency for Health Care Administration (AHCA), in conjunction with
the Florida Department of Children and Families (DC F), developed the attached responses to
the findings and recommendations in the referenced audit report since the findings and
recommendations involved activities undertaken and managed by both Florida agencies.
The responses are grouped together in the same order as presented in the audit report.

Where the State of Florida did not concur with the DIG's written conclusions, the responses set
forth include the involved agencies' rationale. If further clarification or justification is needed,
please do not hesitate to contact me.

In closing, I would like to acknowledge your staff for the professional and efficient manner in
which they conducted this audit. The cooperation they extended in scheduling an exit
conference to accommodate both Florida agencies and the extension of time to craft a joint
response were both appreciated.




ED/em
Attachment




 2727 Mahan Drive. Mail Stop #1                                                     Visit AHCA online at
 Tallahassee, FL 32308                                                             AHCA.MyFlorida.com
                                                                                                   Page 2 of 4

                            Responses to Report Number A..()4.11-08007
                     Florida Medicaid: Millions in Ollerpayments Not Refunded

Report Number 

A..()4.11-08007 

                                                       -   ~-~--
                                                                   • •~:C   __




Findlng"l           The State agency did not return the Federal share of Medicaid overpayments
                    identified by the Department [of Children & Families]. From July 1, 2007, through
                    June 30, 2010, the Department identified $22,283,131 ($12,251,265 Federal
                    share) in Medicaid overpayments; however, the State agency did not return the
                    Federal share to CMS.

Recommendation      The State agency [AHCA] refund the $12,251,265 Federal share of identified
                    Medicaid overpayments.

Response            The Agency for Health Care Administration concurs that the Federal share of
                    Medicaid overpayments identified in Report Number a-04-11-08007 was not
                    returned to the Centers for Medicare and Medicaid Services (CMS). While
                    acknowledging this finding, the State of Florida believes additional clarifying
                    elements should be included in the final audit report to accurately reflect the
                    circumstances and conditions that existed related to the benefit recoveries
                    undertaken by the Department of Children & Families, and to clarify the types of
                    overpayments involved in the instant audit.

                    The overpayments that were the subject of this audit encompassed the period
                    extending from July 1, 2007, through June 3D, 2010. These amounts were
                    categorized as such (overpayments) through HHS/OIG's interpretation of
                    language in 42 C.F.R. § 433.304 which defines an overpayment as lithe amount
                    paid by a Medicaid agency to a provider which is in excess of the amount that is
                    allowable for services furnished •.. and which is required to be refunded .... " The
                    State of Florida does not dispute that the overpayments identified in the report
                    were properly designated as such since the identification of the overpayments
                    for this audit was accomplished by HHS/OIG reviewing a database provided by
                    the Department of Children & Families containing 15,079 Department-identified
                    overpayments totaling $22,283,131.

                    The State of Florida, through this response, intends to emphasize that the subject
                    overpayments in this audit were not categorized as overpayments due to
                    Medicaid providers' inappropriate billings. The overpayments were due to
                    Medicaid recipients becoming ineligible for Medicaid services sometime after an
                    eligibility determination had been made and patently legitimate services were
                    rendered by enrolled Medicaid providers. In other words, the overpayments
                    addressed in this audit were not caused by provider misconduct, fraud, or abuse;
                    the overpayments were the result of recipient eligibility errors and enrolled
                    recipients transitioning in and out of Medicaid eligibility.

                    Recipient eligibility errors, under Florida law, bar the recovery of related

                                                   1
                                                                                              Page 3 of 4

                   overpayments from providers. See s. 409.907, Florida Statutes, which reads in
                   pertinent part: "The agency •.. is prohibited from demanding repayment from the
                   provider In any instance in which the Medicaid overpayment is attributable to
                   error of the department in the determination of eligibility of a recipient."
                   Additionally, the Federal regulation mandating the refunding of overpayments,
                   42 C.F.R. § 433.316(b), states that a Medicaid agency must take It••• reasonable
                   actions to attempt to recover the overpayment in accordance with State law and
                   procedures.» Emphasis supplied. It Is Florida's position that it has taken
                   reasonable actions to recover the overpayments from the recipients and Florida
                   law prohibits AHCA and DCF from attempting to recover the funds from the
                   providers associated with the identified overpayments.

                   While the amount actually recovered from the benefit recoveries undertaken by
                   the Department of Children & Families during the audit period was not detailed
                   in the audit report, and the title of the audit report, nMillions in Overpoyments
                   Not Refunded," does not inform the reader of the amount in question - the
                   actual recovered amount was only $2,499,369.98. The State of Florida concedes
                   that these funds were not refunded to CMS and is prepared to refund these
                   funds upon demand.

                   The State of Florida does not concur with the recommendation that it refund the
                   $12,251,265 identified (but not collected) Federal share of identified Medicaid
                   overpayments referenced in this audit report. This would create a disincentive
                   for the State to continue benefit recoveries from recipients later found to be
                   ineligible for a variety of reasons and/or due to error, and would incentivize State
                   pollcymakers and lawmakers to halt or limit related benefit recoveries from
                   recipients and restrict Medicaid eligibility controls to the State's Medicaid
                   Eligibility Quality Control processes in the State Plan. Thus, the State of Florida is
                   strongly considering the future operation of the Medicaid benefit recovery
                   program should this audit establish the precedent that States must return the full
                   amount of identified overpayments, rather than the amount collected.



Finding #2 	       The State agency [AHCA) did not return the Federal share of Medicaid
                   overpayments because it did not adequately coordinate with the Department to
                   ensure that the Department [DCF) reported identified Medicaid overpayments in
                   accordance with Federal and State requirements.



Recommendation 	   The State agency [AHCA) work with the Department to improve coordination and
                   report State-identified Medicaid overpayments made on behalf of ineligible
                   beneficiaries.



Response 	         The Agency for Health Care Administration and the Department of Children &
                   Families concur with this finding and the associated recommendation. In
                   October of 2011, the Agency for Health Care Administration began revising draft

                                                 2
                                                                Page
                                                                Page 44 of
                                                                        of44



language for a Memorandum ofAgreement (MOA) to supersede the legacy 1993
MOA referenced in the audit report. The State will continue this endeavor, with
a target date for finalization being October 1, 2012.




                         3

